  Report No. D-2009-054              February 17, 2009




 Identification of Classified Information in Unclassified
DoD Systems During the Audit of Internal Controls and
  Data Reliability in the Deployable Disbursing System
                                 INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704


                                                                         February 17,2009


MEMORANDUM FOR ASSISTANT DEPUTY COMMANDANT, PROGRAMS AND
                 RESOURCES DEPARTMENT; AND FISCAL DIRECTOR
                 OF THE UNITED STATES MARINE CORPS
               COMMANDER, U.S. CENTRAL COMMAND
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on the Identification of Classified Information in Unclassified DoD
         Systems During the Audit ofInternal Controls and Data Reliability in the
         Deployable Disbursing System (Report No. D-2009-054)

       Weare providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report. Comments
provided by the Assistant Deputy Commandant, Programs and Resources Department;
and the Fiscal Director of the U.S. Marine Corps confOimed to the requirements of DoD
Directive 7650.3; therefore, additional comments are not required. See Attachment 2 for
management comments.

        This is the first in a series of repOlis on our audit ofInternal Controls and Data
Reliability in the Deployable Disbursing System (DDS). The audit objective is to
detelmine whether the internal controls over transactions processed through DDS are
adequate to ensure the reliability of the data processed. The audit series will include
financial infOimation processed by disbursing stations supporting the Global War on
Terror, as well as the recording of related obligations. We are issuing this report because
we have determined that the U.S. Marine Corps (USMC) has processed disbursement
transactions that contain classified information into unclassified DoD systems. See
Attachment I for the audit scope and methodology.

Background
       The DDS and the Electronic Document Access/Voucher Processing System
(EDAlVPS) capture disbursement information and documentation for commercial and
miscellaneous payments processed by the USMC disbursing stations supporting the
Global War on Terror. The Defense Finance and Accounting Service (DFAS) developed
DDS to fulfill the need for a military tactical disbursing system to account for Treasury
funds entrusted to disbursing agents on the battlefield and provide timely reporting of
accounting and pay infOimation. DDS is used for a variety of disbursing office functions,
including travel pay, military pay, accounts payable, disbursing and collection processes,
and reporting. During FY 2006 and FY 2007, DDS processed in excess of
9,600 commercial and miscellaneous payments for more than $310 million. DDS feeds
disbursement data to EDAlVPS, which provides access to documents used to support the
                                                                                             2

procurement, contract administration, bill paying, and accounting processes. Because
DDS and EDA/VPS are unclassified systems, these systems should not contain classified
information.

        DoD 5200.1-R, “DoD Information Security Program,” January 1997, prescribes
procedures for implementing Executive Order 12958, “Classified National Security
Information,” April 20, 1995, within DoD. DoD 5200.1-R, “DoD Information Security
Program,” January 1997, establishes the DoD Information Security Program to promote
proper and effective classification, protection, and downgrading of official information
requiring protection in the interest of the national security.

        U.S. Central Command (USCENTCOM) Security Classification Guide 0501,
dated June 9, 2005, implements the requirements of Executive Order 12958 for
USCENTCOM. The USCENTCOM Security Classification Guide 0501 establishes the
basic policies for proper classification, downgrading, and declassification of information
related to operations, facilities, communications, data collection, and processing.
Personnel involved in USCENTCOM activities use the USCENTCOM Security
Classification Guide 0501 to determine the levels of security classification assigned to
information, systems, programs, or projects associated with USCENTCOM, including
information processed by disbursing stations supporting the Global War on Terror.

Results
        The USMC entered classified information into two unclassified DoD systems,
DDS and EDA/VPS. This occurred because the USMC had not developed a policy to
ensure that finance personnel were adequately aware of classification guidelines
contained in the USCENTCOM Security Classification Guide. In addition, the USMC
had not taken adequate measures to remove existing classified information from these
systems. The unauthorized disclosure of classified information in unclassified systems,
such as DDS and EDA/VPS, could place unsuspecting warfighters or trusted foreign
officials in harm’s way and cause damage to national security.

        We identified 2 disbursement vouchers containing supporting documentation
marked with a classification and 31 disbursement vouchers containing unmarked
sensitive information. We provided 32 of the 33 disbursement vouchers to the DFAS
Corporate Security Office to secure them and to make a classification determination.
They confirmed that one of the two marked disbursement vouchers the USMC
incorporated into EDA/VPS contained marked classified information. The USMC
removed the second of the two marked disbursement vouchers from EDA/VPS. The
DFAS Corporate Security Office also confirmed that the USMC should classify the
31 documents containing unmarked sensitive information that came from EDA/VPS;
therefore, the vouchers should be removed from the system. DFAS ultimately shut the
system down to remove the remaining identified classified information on
November 6, 2008.
                                                                                            3

       DDS data from four disbursement vouchers contained classified information in
the “Payee's Name and Address” and in the “Payee” fields. The USMC personnel
entered this information into DDS.

       On October 15, 2008, we informed USMC Disbursing, Operations and Systems
Section personnel that disbursement vouchers containing unmarked classified
information existed in EDA/VPS. They informed us that the USMC had been alerted in
June 2008 to the issue of marked, classified information being included in EDA/VPS.

        As a result, the USMC had taken steps to remove the classified information
posted in EDA/VPS by reviewing the vouchers marked with a classification. However,
they had not reviewed EDA/VPS for sensitive information that did not contain any
classification markings.

        On October 20, 2008, we provided the USMC Disbursing, Operations and
Systems Section information regarding vouchers in EDA/VPS that contained sensitive
information requiring classification and removal from EDA/VPS. As of
December 3, 2008, DFAS had reviewed EDA/VPS and removed 31 of the 32 vouchers
we provided to DFAS, Corporate Security Office. However, to prevent the USMC from
entering additional classified information into DDS or scanned into EDA/VPS, it should
develop a policy to ensure that finance personnel can identify classified information and
remove it before entering it into unclassified systems. Because of the potential exposure
of classified information, the USMC should take immediate action to implement the
following recommendations.

Management Actions
        As a result of this audit, DFAS and USMC have taken corrective actions to
identify and remove classified information from EDA/VPS and DDS. In addition, the
USMC has issued policy on identifying and processing classified transactions and
supporting documentation. On December 17, 2008, DFAS completed a review of all
USMC disbursement vouchers within EDA/VPS and removed 4 marked with a
classification and 178 unmarked classified vouchers. On December 17, 2008, the USMC
completed a preliminary inquiry to determine whether classified information was
compromised because of the lack of classification labels on vouchers. On
January 7, 2009, the USMC issued a policy memorandum for identifying and processing
classified information.

Recommendations, Management Comments, and Audit Response
      We recommend that the Assistant Deputy Commandant, Programs and Resources
Department; and the Fiscal Director of the U.S. Marine Corps:

1. Develop policy for finance personnel on identifying and processing classified
   transactions and supporting documentation.
                           Scope and Methodology
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions, based on our audit
objectives.

This is the first in a series of reports on our audit of Internal Controls and Data Reliability
in the DDS. During FY 2006 and FY 2007, DDS processed in excess of
9,600 commercial and miscellaneous payments for more than $310 million. We
evaluated the FY 2006 and FY 2007 commercial and miscellaneous payment voucher
data and the archived data that the USMC entered into DDS, the interface of this data into
EDA/VPS, and the supporting documentation that the USMC scanned and posted into
EDA/VPS. We applied the classification guidelines contained in USCENTCOM
Security Classification Guide 0501 and reviewed a judgmental sample of DDS data and
EDA/VPS documentation to determine whether these systems contained classified
information. As a result, we determined that the USMC had processed disbursement
transactions that contain classified information. We also discussed the USMC security
policies and DDS processing with USMC financial personnel.

Review of Internal Controls
We did not review the USMC management control program as part of this review. We
will address the USMC management control program in a report on Internal Controls and
Data Reliability in the DDS (Project No. D2007-D000FL-0252.001).

Use of Computer-Processed Data
We relied upon computer-processed data obtained from DDS to perform this audit. We
performed a reliability assessment of computer-processed data out of DDS, which we
will address in the audit, “Internal Controls and Data Reliability in the DDS”
(Project No. D2007-D000FL-0252.001). The reliability of the data from DDS did not
affect the results of the audit. We also relied upon data from EDA/VPS system. We did
not assess the reliability of the system because we limited our use of the data to view
vouchers for sensitive information. However, not assessing the reliability of EDA/VPS,
did not affect the results of the audit.

Use of Technical Assistance
We consulted with DFAS and DoD OIG security officials.

Prior Audit Coverage
During the past five years there have been no reports issued regarding classified
information processed by DDS.


                                                                                Attachment 1
United States Marine Corps Comments




                  Click to add JPEG file




                                           Attachment 2
                                2




Click to add JPEG file




                         Attachment 2
                                3




Click to add JPEG file




                         Attachment 2
                                4




Click to add JPEG file




                         Attachment 2
                                5




Click to add JPEG file




                         Attachment 2
